   DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                      Office of Audit Services, Region III
                                                                      Public Ledger Building, Suite 316
                                                                      150 S. Independence Mall West
                                                                      Philadelphia, PA 19106-3499

August 23, 2011

Report Number: A-03-11-00001

Ms. Heidi Arndt
Senior Medicare Compliance Officer
Aetna, Inc.
1425 Union Meeting Road
Blue Bell, PA 19422

Dear Ms. Arndt:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector General
(OIG), final report entitled Review of Aetna, Inc., Pharmacy Audit Recoveries for Medicare Part D
Drugs Dispensed in Calendar Year 2008. We will forward a copy of this report to the HHS action
official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-03-11-00001 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services

Enclosure


HHS Action Official:

Timothy B. Hill, Deputy Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Timothy.Hill@cms.hhs.gov
 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF AETNA, INC., PHARMACY
AUDIT RECOVERIES FOR MEDICARE
  PART D DRUGS DISPENSED IN
     CALENDAR YEAR 2008




                        Daniel R. Levinson
                         Inspector General

                           August 2011
                          A-03-11-00001
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

The Medicare Part D Program

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (Act)
amended Title XVIII of the Social Security Act by establishing the Medicare Part D prescription
drug benefit. Under the Part D program, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

To provide prescription drug benefits under Part D, the Centers for Medicare & Medicaid
Services (CMS) contracts with private entities called “sponsors” that act as payers and insurers.
Sponsors may offer these benefits through a standalone prescription drug plan or as part of a Part
C managed care plan, known as a Medicare Advantage Prescription Drug Plan. Sponsors
contract with pharmacies to dispense prescription drugs to eligible Medicare beneficiaries.

Payment, Reconciliation, and Prescription Drug Event Records

Sections 1860D-14 and 15 of the Act provide that CMS pay plans for Part D benefits through
subsidies, risk sharing, and final payment determination. CMS pays the subsidies prospectively
throughout the plan year. Pursuant to 42 CFR § 423.343, after the close of the plan year, CMS is
responsible for reconciling the prospective payments to the sponsor’s actual allowable costs to
calculate final payments and risk sharing amounts. Sections 1860D-15(c)(1)(C) and (d)(2) of the
Act require sponsors to submit data and information necessary for CMS to carry out the payment
provisions.

In CMS’s Requirements for Submitting Prescription Drug Event Data (April 26, 2006), CMS
requires that, for every prescription filled, plans must submit a Prescription Drug Event (PDE)
record to CMS. The PDE record contains prescription drug cost and payment data that enables
CMS to determine the plan’s actual allowable costs, make payment to plans, and otherwise
administer the Part D benefit. An adjustment or deletion code in a PDE record is used for any
change reported after the original PDE record was submitted. PDE records may be adjusted or
deleted for a number of reasons, including when the sponsor changes the original payment to the
pharmacy for any reason.

In a memorandum to sponsors dated April 9, 2009, CMS extended the deadline for calendar year
2008 PDE data to be included in reconciliation from May 31, 2009, to June 29, 2009. However,
the memorandum instructed sponsors to continue submitting and correcting PDE data with
financial impact after the deadline so that current data would be available to CMS for evaluation
and possible consideration for future reconciliation re-opening.




                                                1
Part D Sponsor Oversight Responsibilities

Section 1860D-4(c)(1)(D) of the Act requires sponsors to have in place a program to control
fraud, waste, and abuse. CMS regulations (42 CFR § 423.504(b)(4)(vi)) require sponsors to have
a compliance plan which includes procedures for effective internal monitoring and auditing.
Chapter 9 of CMS’s Part D Prescription Drug Benefit Manual provides additional guidance that
instructs sponsors to develop a strategy to monitor and audit pharmacies and other entities
involved in the delivery of the drug benefit. The guidance also states that routine and random
auditing should be part of the contractual agreement with the pharmacies.

Aetna, Inc.

Aetna, Inc. (Aetna), contracts with CMS to provide Part D prescription drug plans covering over
1 million members. Aetna has over 60,000 pharmacies in its national network and conducts
internal quality reviews, desk audits, and on-site audits to monitor pharmacy dispensing trends,
billing irregularities, and record keeping. For its desk and on-site audits, Aetna contracts with a
company specializing in pharmacy verification audits.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether recoveries made by Aetna as a result of pharmacy audits
were properly reported to CMS.

Scope

Our audit included Aetna’s audit recoveries on Part D claims dispensed between January 1 and
December 31, 2008. To identify any audit recoveries, we relied on the accuracy and
completeness of the information contained in Aetna’s systems. We did not perform an overall
assessment of Aetna’s internal control structure. Rather, we reviewed only the internal controls
that pertained directly to our objective.

We performed our fieldwork during December 2010 and May 2011 at Aetna’s offices in Blue
Bell, Pennsylvania.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Aetna’s policies related to monitoring and auditing pharmacies, including any
        applicable contracts and audit plans;




                                                 2
   •   reviewed Aetna’s procedures to recoup audit recoveries from pharmacies and to report
       those amounts to CMS;

   •   interviewed key staff and discussed 3 pharmacy audit claims with recoveries to gain an
       understanding of Aetna’s process;

   •   identified from Aetna’s audit recovery tracking spreadsheets a sampling frame of 9,560
       Medicare Part D 2008 pharmacy claims audited by Aetna or its contractor that resulted in
       recovery amounts greater than $0, totaling $4,370,356;

   •   obtained an attestation from Aetna’s senior management to the completeness of the data;

   •   selected a simple random sample of 100 audited claims with identified recovery amounts
       and;

   •   verified for the 100 audited claims that:

           o Aetna recovered the amount from the pharmacy and

           o Aetna properly reported the recovered amount to CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Aetna properly reported $4.4 million in pharmacy audit recoveries to CMS by submitting
adjustment and deletion PDEs as required. Aetna continued correcting 2008 PDE data and
submitting corrections with financial impact after the PDE deadline as instructed in CMS’s 2009
guidance. Accordingly, we are making no recommendations to Aetna.




                                                   3
